No. 19-1039
IN THE

Supreme Court of the United States
————
PENNEAST PIPELINE COMPANY, LLC,
Petitioner,
v.
STATE OF NEW JERSEY; NEW JERSEY DEPARTMENT OF
ENVIRONMENTAL PROTECTION; NEW JERSEY STATE
AGRICULTURE DEVELOPMENT COMMITTEE; DELAWARE
& RARITAN CANAL COMMISSION; NEW JERSEY WATER
SUPPLY AUTHORITY; NEW JERSEY DEPARTMENT OF
TRANSPORTATION; NEW JERSEY DEPARTMENT OF THE
TREASURY; NEW JERSEY MOTOR VEHICLE COMMISSION,
Respondents.
————
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
————
BRIEF OF THE PENNSYLVANIA
MANUFACTURERS’ ASSOCIATION AND
THE NEW JERSEY BUSINESS & INDUSTRY
ASSOCIATION AS AMICI CURIAE
IN SUPPORT OF PETITIONER
————
CHARLES O. BECKLEY, II
Counsel of Record
JOHN G. MILAKOVIC
ELIZABETH S. BECKLEY
THOMAS S. BECKLEY
BECKLEY & MADDEN, LLC
212 North Third Street, Suite 301
Harrisburg, Pennsylvania 17101
(717) 233-7691
cbeckley@pa.net
Counsel for Amici Curiae
March 23, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

ii

STATEMENT OF INTEREST ............................

1

SUMMARY OF ARGUMENT .............................

2

ARGUMENT ........................................................

3

I.

THE DECISION BELOW INCORRECTLY ENABLES A STATE TO
ASSERT ITS ELEVENTH AMENDMENT IMMUNITY FROM SUIT TO
LIMIT THE FEDERAL GOVERNMENT’S EXERCISE OF ITS EMINENT
DOMAIN POWER ....................................

3

THE DECISION BELOW THREATENS
BOTH THE SECURITY AND THE
ECONOMY OF THE UNITED STATES,
BY CRIPPLING THE NATION’S ABILITY
TO CONTINUE TO MAINTAIN AND
EXPAND THE INFRASTRUCTURE
REQUIRED TO MEET THE COUNTRY’S GROWING ENERGY NEEDS ......

8

CONCLUSION ....................................................

16

II.

(i)

ii
TABLE OF AUTHORITIES
CASES

Page(s)

Berman v. Parker,
348 U.S. 26 (1954) .....................................

4

In Re: PennEast Pipeline Company, LLC,
938 F.3d 96 (3d Cir. 2019) .......................passim
Kohl v. United States,
91 U.S. 367 (1875) ................................. 3, 6, 7, 8
Sabine Pipe Line, LLC v. A Permanent
Easement of 4.25 +/- Acres of Land
in Orange County Texas,
327 F.R.D. 131 (E.D. Tex. 2017) ...............

5, 6

Tennessee Gas Pipeline Company, LLC, v.
Permanent Easement for 7.053 Acres,
931 F.3d 237 (3d Cir. 2019) ......................

4

CONSTITUTION
U.S. Const. amend. V ...................................

3

U.S. Const. amend. XI .................................passim
STATUTES
15 U.S.C. § 717f(h) ......................................passim
OTHER AUTHORITIES
Abraham Bell, Private Takings, 76 U. Chi.
L. Rev. 517 (2009) .....................................

4

iii
TABLE OF AUTHORITIES—Continued
Page(s)
David N. Taylor and Carl A. Marrera,
Economic Model Analysis: Polypropylene
Manufacturing Plant Expansion in
Delaware County, PA (January 15, 2019),
available at https://www.pamanufactur
ers.org/sites/default/files/PMA_Econ_Mo
del_PolyProp_19.pdf ................................. 13-14
Declaratory Order, 170 FERC ¶ 61,064
(2020) ........................................................passim
General Pipeline FAQs, https://www.phm
sa.dot.gov/faqs/general-pipeline-faqs (last
visited March 19, 2020) ............................ 9, 10
ICF, North American Midstream Infrastructure Through 2035: Significant
Development Continues (June 18, 2018),
available at https://www.ingaa.org/File.
aspx?id=34703 ....................................... 9, 10, 13
Jude Clemente, Pennsylvania as the New
Natural Gas Giant, (March 21, 2019,
07:41pm EDT) https://www.forbes.com/si
tes/judeclemente/2019/03/21/pennsylvaniaas-the-new-natural-gas-giant#378533846
36c..............................................................

11

U.S. Energy Information Administration,
Pennsylvania State Energy Profile,
https://www.eia.gov/state/?sid=PA (last
visited March 19, 2020) ............................ 10-11

STATEMENT OF INTEREST
The following parties respectfully submit this brief
as amici curiae.1
Since its founding in 1909, the Pennsylvania Manufacturers’ Association (“PMA”) has served as a leading
voice for business and manufacturing in Pennsylvania. From its headquarters in the Frederick W. Anton,
III, Center, across from the steps to the State Capitol
Building in Harrisburg, PMA seeks to improve
the Commonwealth’s competitiveness by promoting
pro-growth public policies that reduce the cost of
creating and keeping jobs.
PMA has forcefully
advocated for forward-looking strategies that will take
full advantage of the Commonwealth’s tremendous
reserves of natural gas, and ensure a secure, stable
supply of market-priced energy for Pennsylvania’s
businesses and citizenry.
Located in Trenton, New Jersey, the New Jersey
Business & Industry Association (“NJBIA”) is the
nation’s largest statewide employer association. Its
members employ more than a million people, and
represent every industry in New Jersey, including
manufacturers, contractors, retailers and service
providers. For 110 years, the NJBIA has championed
a competitive business climate, both locally and
globally, and facilitated partnerships among business,
1

Pursuant to Sup. Ct. R. 37.2(a), amici curiae have provided
counsel of record for both Petitioners and Respondents timely
notice of amici curiae’s intent to file this brief, and all parties
have consented to its filing. In accordance with Sup. Ct. R. 37.6,
amici curiae state that no party, counsel for a party, or person
other than amici curiae, their members or counsel authored any
portion of this brief or made any monetary contribution intended
to fund this brief’s preparation and submission.

2
government and academia. Because New Jersey must
import much of the natural gas it uses via interstate
pipelines from Pennsylvania and elsewhere, NJBIA
believes that the decision of the court below could lead
to serious disruptions in New Jersey’s energy supply.
SUMMARY OF ARGUMENT
The federal government’s eminent domain power
derives from the federal government’s sovereignty; it
was assumed to be within the scope of enumerated
powers; and it predates the Eleventh Amendment’s
adoption. The federal power of eminent domain is
complete in itself. Its use to condemn State-owned
property does not depend upon the State’s consent,
and States do not enjoy Eleventh Amendment immunity from its exercise. Congress may delegate the
federal eminent domain power, and that delegation
carries with it the ability to condemn state-owned
property interests. Congress made such a delegation
in Section 7(h) of the Natural Gas Act (“NGA”), to
allow the holder of a certificate of public convenience
and necessity issued by the Federal Energy Regulatory Commission (“FERC”) to acquire the property
needed to construct an interstate pipeline. The lower
court erred by declaring that the holder of a certificate
of public convenience cannot condemn property owned
by a State in federal court because Section 7(h)’s
delegation of the federal eminent domain power did
not carry with it a delegation of the federal government’s Eleventh Amendment immunity.
By allowing a State to block the construction of
an interstate natural gas pipeline, the lower court’s
decision will upend the manner in which pipeline
developers have done business for 80 years, and undermine the nation’s security and economy in at least
four ways. First, it will severely impede the continued

3
orderly development of critically needed natural gas
infrastructure. Second, it will render large reserves of
natural gas in states like Pennsylvania unavailable
to meet the growing energy needs of states like New
Jersey. Third, by slowing or potentially halting interstate pipeline development, it will deprive the nation
of the substantial economic activity associated with
both the construction of the pipelines themselves, and
the upstream and downstream users of the natural gas
they transport. Finally, by introducing delay and
uncertainty into the approval process, and casting into
doubt the utility of a FERC-issued certificate of public
convenience, it will make pipelines more difficult to
finance and more expensive to build.
For these reasons, the Court should grant the
Petition for Certiorari and review the decision of the
lower court.
ARGUMENT
1. THE DECISION BELOW INCORRECTLY
ENABLES A STATE TO ASSERT ITS
ELEVENTH AMENDMENT IMMUNITY
FROM SUIT TO LIMIT THE FEDERAL
GOVERNMENT’S EXERCISE OF ITS
EMINENT DOMAIN POWER
As this Court recognized 145 years ago in Kohl v.
United States, 91 U.S. 367 (1875), the right of eminent
domain “is inseparable from sovereignty,” it was “well
known when the Constitution was adopted,” and it
may be exercised by the federal government. Kohl, 91
U.S. at 371-372. Although the “Constitution never
explicitly grants the power of eminent domain to the
national government,” the “Fifth Amendment – which,
at the time of its adoption applied only to the national
government – requires that ‘just compensation’ be

4
paid for takings, making evident that such a power
was assumed to be within the scope of enumerated
powers.” Abraham Bell, Private Takings, 76 U. Chi. L.
Rev. 517, 525 (2009) (footnotes omitted). See also
Tennessee Gas Pipeline Company, LLC, v. Permanent
Easement for 7.053 Acres, 931 F.3d 237, 242 (3d Cir.
2019) (“It is well-established that the federal government wields the authority to exercise eminent
domain.”)
As the lower court acknowledged, “[t]he federal government can exercise that power to condemn State
land in federal court.” In Re: PennEast Pipeline
Company, LLC, 938 F.3d 96, 104 (3d Cir. 2019). In a
separate case, decided less than two months after
PennEast Pipeline, another panel of the lower court
explained that “because ‘the power of eminent domain
is merely the means to the end,’ the federal government also has the power to delegate its eminent
domain power to private entities.” Tennessee Gas
Pipeline, 931 F.3d at 242 (quoting Berman v. Parker,
348 U.S. 26, 33 (1954)). In Section 7(h) of the NGA,
Congress delegated the federal government’s eminent
domain power to the “holder of a certificate of public
convenience and necessity” issued by FERC:
When any holder of a certificate of public
convenience and necessity cannot acquire by
contract, or is unable to agree with the owner
of property to the compensation to be paid
for, the necessary right-of-way to construct,
operate, and maintain a pipe line or pipe lines
for the transportation of natural gas…it may
acquire the same by the exercise of the right
of eminent domain in the district court of
the United States for the district in which
such property may be located, or in the
State courts….Provided, That the United

5
States district courts shall only have jurisdiction of cases when the amount claimed by
the owner of the property to be condemned
exceeds $3,000.00.
15 U.S.C. § 717f(h) (emphasis in original).
The lower court correctly recognized that, in Section
7(h), Congress delegated the federal government’s
eminent domain power to the holders of a FERCissued certificate of public convenience. PennEast
Pipeline, 938 F.3d at 100. Relying primarily on a
solitary district court decision, however, Sabine Pipe
Line, LLC v. A Permanent Easement of 4.25 +/- Acres
of Land in Orange County Texas, 327 F.R.D. 131 (E.D.
Tex. 2017), the lower court then erred by concluding,
first, that the federal government’s eminent domain
power is separate and distinct from its exemption from
Eleventh Amendment immunity, and, second, that a
delegation of the eminent domain power does not
include the right to enforce the exercise of that power
against State-owned property in federal court unless
Congress – assuming that it can do so at all – also
clearly and unmistakably delegates the Eleventh
Amendment immunity exemption:
[I]t is essential at the outset to distinguish
between the two powers at issue here:
the federal government’s eminent power and
its exemption from Eleventh Amendment
immunity. Eminent Domain is the power
of a sovereign to condemn property for its own
use. The federal government can exercise
that power to condemn State land in federal
court. But its ability to do so is not due simply
to ‘the supreme sovereign’s right to condemn
state land. Rather, it is because the federal
government enjoys a special exemption from

6
the Eleventh Amendment.’ Thus, the federal
government’s ability to condemn State land…
is, in fact, the function of two separate
powers: the government’s eminent domain
power and its exemption from Eleventh
Amendment immunity. A delegation of the
former must not be confused for, or conflated
with, a delegation of the latter. A private
party is not endowed with all of the rights of
the United States by virtue of a delegation of
the government’s power of eminent domain.
PennEast Pipeline, 938 F.3d at 104 (citations omitted)
(quoting Sabine Pipe Line, 327 F.R.D. at 140).
Although the lower court expressed its “deep doubt
that the United States can delegate its exemption from
state sovereign immunity to private parties,” rather
than confront the constitutional question, the court
instead held that, because the NGA contains no mention of the Eleventh Amendment nor any reference
to “the federal government’s ability to sue the states,”
the “NGA does not constitute a delegation to private
parties of the federal government’s exemption from
Eleventh Amendment immunity.” PennEast Pipeline,
938 F.3d at 111, 112-113.
The lower court wrongly bifurcated the federal
government’s eminent domain power. The ability to
exercise eminent domain power cannot be divorced
from the ability to enforce that power in court, regardless of whether the property taken belongs to a State
or a private individual or entity. This Court recognized in Kohl that the federal government’s eminent
domain power flows from its sovereignty and that the
right of eminent domain was “well known when the
Constitution was adopted….” Kohl, 91 U.S. at 372. As
the Court further observed in Kohl:

7
Such an authority is essential to [the federal
government’s] independent existence and
perpetuity. These cannot be preserved if the
obstinacy of a private person, or if any other
authority, can prevent the acquisition of the
means or instruments by which alone governmental functions can be performed….If
the right to acquire property for such uses
may be made a barren right by the unwillingness of property-holders to sell, or by the
action of a State prohibiting a sale to the
Federal government, the constitutional grants
of power may be rendered nugatory, and the
government is dependent for its practical
existence upon the will of a State, or even
upon that of a private citizen. This cannot be.
* * *
If the United States have the power, it must
be complete in itself. It can neither be enlarged nor diminished by a State. Nor can
any State prescribe the manner in which it
must be exercised. The consent of a State
can never be a condition precedent to its
enjoyment.
Kohl, 91 U.S. at 368, 374.
The federal government’s eminent domain power,
the source of which pre-dates the Eleventh Amendment, is “complete in itself.” Id., at 374. It does not
depend for its exercise against State-owned property
upon the federal government’s exemption from Eleventh Amendment immunity; the federal government
does not need a State’s consent to exercise its eminent
domain power. And the federal government can delegate that power to a private party, like a holder of a

8
certificate of public convenience within the meaning of
Section 7(h) of the NGA, to acquire the land necessary
to build interstate pipelines to transport natural gas.
The right to condemn absent the right to compel would
reduce the eminent domain power, in the hands of
Congress’ delegee, to a bark without a bite.
The lower court erred by holding that the federal
government’s eminent domain power is not complete
in itself, and that its right to condemn State-owned
property depends upon its Eleventh Amendment immunity. “The consent of a State can never be a
condition precedent to” the exercise of the federal
power of eminent domain. Kohl, 91 U.S. at 374. The
lower court’s decision incorrectly enables a State to
control how Congress elects to exercise the federal
eminent domain power by blocking the exercise of
that power by a private party to whom it has been
delegated – even though the federal government,
through FERC’s issuance of a certificate of public
convenience, has in effect selected the properties to be
condemned by approving the pipeline’s route. For this
reason, the Court should grant the Petition for
Certiorari and review the decision of the lower court.
II. THE DECISION BELOW THREATENS
BOTH THE SECURITY AND THE ECONOMY OF THE UNITED STATES, BY
CRIPPLING THE NATION’S ABILITY TO
CONTINUE TO MAINTAIN AND EXPAND
THE INFRASTRUCTURE REQUIRED
TO MEET THE COUNTRY’S GROWING
ENERGY NEEDS
The lower court candidly acknowledged that “our
holding may disrupt how the natural gas industry,
which has used the NGA to construct interstate
pipelines over State-owned land for the past eighty

9
years, operates.” PennEast Pipeline, 938 F.3d at 113.
In its Order on Petition for Declaratory Order
(“Declaratory Order”) entered on January 30, 2020,
FERC, the federal agency charged with administering
the NGA and overseeing the development of the
nation’s natural gas infrastructure, voiced its concern
in starker terms:
If the Third Circuit’s opinion stands, we
believe it would have profoundly adverse
impacts on the development of the nation’s
interstate natural gas transportation system,
and will significantly undermine how the
natural gas industry has operated for
decades.
Declaratory Order, 170 FERC ¶ 61,064, ¶56, p. 42
(2020).
Some background facts will help put into relief the
likely consequences of the lower court’s decision.
According to the United States Department of Transportation’s Pipeline and Hazardous Safety Administration (“PHMSA”), “[n]atural gas supplies 25 percent of all the energy Americans consume.” General
Pipeline FAQs, https://www.phmsa.dot.gov/faqs/gener
al-pipeline-faqs, p. 1. A study prepared by ICF for the
Interstate Natural Gas Association of America in
June, 2018, projects that the demand for natural gas
in the United States and Canada, including liquid
natural gas exports and pipeline exports to Mexico,
will increase from 91 billion cubic feet per day in
2017 to 130 billion cubic feet per day in 2035. ICF,
North American Midstream Infrastructure Through
2035: Significant Development Continues, p. 34 (June
18, 2018), available at https://www.ingaa.org/File.
aspx?id=34703, p. 34 (June 18, 2018). The ICF Study
further “projects the need for 57 billion cubic feet per

10
day of new gas pipeline capacity to support the levels
of production and market growth that are projected
through 2035.” Id., at p. 37.
The construction of this new capacity will require a
“total investment of $685 to $898 billion,” which will
add $1.3 trillion to U.S. and Canadian GDP from 2018
through 2035.” Id., at p. 68. Infrastructure development will support on average “725,000 jobs each year
throughout the projection including 242,000 direct
jobs.” Id. The study concludes that “[i]nfrastructure
development will have wide-ranging benefits for millions of Americans. The midstream business is critical
to the growth of the upstream and downstream portions of the oil and gas business.” Id.
According to PHMSA, “[p]ipelines enable the safe
movement of extraordinary quantities of energy products to industry and consumers, literally fueling
our economy and way of life.” General Pipeline FAQs,
https://www.phmsa.dot.gov/faqs/general-pipeline-faqs,
p. 1. Pipelines “provide the resources needed for
national defense, heat and cool our homes, generate
power for business and fuel an unparalleled transportation system,” by safely delivering “trillions of
cubic feet of natural gas and hundreds of billions of
ton/miles of liquid petroleum products each year.” Id.,
at p. 2. In short, pipelines “are essential: the volumes
of energy products they move are well beyond the
capacity of other forms of transportation.” Id. Most
importantly, according to PHMSA, “[p]ipeline systems
are the safest means to move these products.” Id.
Amici curiae represent manufacturers and other
businesses in Pennsylvania and New Jersey. “The
Marcellus Shale, the largest U.S. natural gas field,”
underlies about three-fifths of the Commonwealth
of Pennsylvania. U.S. Energy Information Admin-

11
istration, Pennsylvania State Energy Profile, https://
www.eia.gov/state/?sid=PA, p. 6 (last visited March
19, 2020) (footnotes omitted). Pennsylvania is the
nation’s second largest producer of natural gas, after
Texas, and “the second largest net supplier of energy
to other states, after Wyoming. Id., at p.p. 1, 6 (footnotes omitted). “Pennsylvania’s marketed natural gas
production reached 6.2 trillion cubic feet in 2018,
almost 11 times larger than in 2010,” and “was equal
to about one-fifth of total U.S. gas production.” Id., at p. 7
(footnotes omitted). Pennsylvania serves as an important source of natural gas for New Jersey, and
other surrounding states, since “[m]ost of the natural
gas shipped by pipeline from Pennsylvania goes to
New Jersey, New York, Maryland, Ohio and West
Virginia.” Id. Still, “[e]ven with booming production,
Pennsylvania’s role as a gas giant continues to be
constrained by a lack of pipelines that ship gas out of
the state.” Jude Clemente, Pennsylvania as the New
Natural Gas Giant, (March 21, 2019, 07:41pm EDT)
https://www.forbes.com/sites/judeclemente/2019/03/21
/pennsylvania-as-the-new-natural-gas-giant#3785338
4636c.
Against this background, it can be fairly seen that
the lower court’s decision will detrimentally impact
the nation’s security and economy in at least the
following ways. First and foremost, the lower court’s
holding hands to individual States the ability to block
construction of any interstate pipeline which crosses
over land which the State either owns, or in which
the State owns some interest, such as a restrictive
easement. Moreover, through the simple expedient of
conveying a portion of their property, or an interest
in their property, to the State, private landowners
who oppose the building of a pipeline can effectively
prevent the pipeline’s construction. For this reason

12
alone, the lower court’s holding threatens to subvert
the continued maintenance (some pipelines have
rights-of-way which need to be renewed periodically)
and development of the nation’s natural gas infrastructure. As FERC summarized in its Declaratory
Order:
We note that the court’s interpretation would
permit states to block construction both on
land a state owns (e.g., along or across all
state roads and the bottoms of navigable
water bodies), and on land over which the
state asserts some lesser property interests
(e.g., conservation easements). If state-owned
lands are treated as impassable barriers for
purposes of condemnation, the circumvention
of those barriers, if possible at all, would
require the condemnation of more private
land at significantly greater cost and with
correspondingly greater environmental impact.
If lands over which a state has asserted any
property interest also become barriers for
purposes of condemnation, a state could
unilaterally prevent interstate transportation of an essential energy commodity
through its borders, thus eviscerating the
purpose of NGA section 7(h).
Declaratory Order, 170 FERC ¶ 61,064 at ¶ 58, n. 221,
p.p. 43-44.
Second, affording to individual States the ability
to block construction of interstate gas pipelines
threatens to rob the nation of its energy independence,
and businesses and residential consumers of a steady,
market-priced supply of energy, by effectively stranding large quantities of natural gas. Pennsylvania, the
second largest producer of natural gas in the country,

13
whose marketed natural gas in 2018 amounted to
about one-fifth of total gas production in the United
States, relies on interstate pipelines to get its gas to
consumers in New Jersey, New York and elsewhere.
Without an adequate interstate pipeline infrastructure, this gas will remain in Pennsylvania, and will
not be available to meet an ever-expanding nationwide
demand. States like New Jersey, that do not produce
substantial amounts of natural gas, depend on interstate pipelines to deliver the energy needed by their
residents and businesses. As FERC noted in its
Declaratory Order, “New Jersey Natural Gas states
that if interstate pipeline companies such as PennEast
are frustrated in their attempts to provide this needed
additional capacity ‘a significant outage event is
a realistic threat.’” Declaratory Order, 170 FERC
¶ 61,064 at ¶ 63, p. 47.
Third, the lower court’s decision, by slowing and
potentially halting the needed expansion of the country’s pipeline infrastructure, will deprive the nation of
significant anticipated economic growth. As noted in
the IFC study, over the next 15 to 20 years, investments in the development of pipeline infrastructure
could add as much as $1.3 trillion to the Gross
Domestic Product of the United States and Canada,
and support as many as 725,000 jobs each year. These
figures “do not consider employment in the upstream
and downstream portions of the oil and gas business.”
ICF Report, https://www.ingaa.org/File.aspx?id=34703,
p. 68.
For example, Pennsylvania recently lost out on the
expansion of a polypropylene manufacturing facility in
Marcus Hook that, according to an analysis performed
by amicus curiae PMA, would have supported more
than one billion dollars of expanded economic activity

14
in Southeastern Pennsylvania over the course of five
years. David N. Taylor and Carl A. Marrera, Economic
Model Analysis: Polypropylene Manufacturing Plant
Expansion in Delaware County, PA, (January 15,
2019), available at https://www.pamanufacturers.
org/sites/default/files/PMA_Econ_Model_PolyProp_19.
pdf “The reason why was clear: Pennsylvania lacked
sufficient pipeline networks to provide natural gas
liquids (NGL) feedstock to the proposed plant site.”
Id., p. 2. The manufacturers of everything from
military aircraft to medical equipment rely on natural
gas to power their plants, and the pharmaceutical
industry employs natural gas liquids in the production
of needed medicines. These businesses and many others
count on pipelines to meet their energy demands.
Fourth, by introducing uncertainty into the approval
and development process, and by undermining the
value and effectiveness of a certificate of public convenience issued by FERC, the lower court’s decision
will render it difficult to finance new pipeline projects
and make building those projects more expensive.
Institutional investors and lenders will be less likely
to commit to finance a pipeline that may never be built
due to an inability to obtain the needed right-of-way.
Similarly, if a State or private individual can delay
indefinitely, or even prevent, the construction of a
pipeline, it will be very difficult for the developer to
estimate accurately the pipeline’s construction cost,
given the variances in wages and the cost of employee
benefits and materials that can occur over time. The
uncertainty flowing from the lower court’s decision
will in and of itself hamper the expansion of the
nation’s energy infrastructure, and in turn slow the
economic growth fostered by a steady supply of
affordable energy.

15
Finally, the lower court suggests that a “workaround” exists for its decision, i.e. an “accountable
federal official” can “file the necessary condemnation
actions and then transfer the property to the natural
gas company.” PennEast, 938 F.3d at 113. FERC
disagrees, stating in its Declaratory Order that “NGA
section 7(h) confers authority to exercise eminent
domain to certificate holders [pipeline developers]
alone. And because neither NGA section 7(h) nor any
other provision of the NGA authorizes the Commission
to exercise eminent domain, the Commission lacks
statutory authority to do so.” Declaratory Order, 170
FERC ¶ 61,064, ¶ 50, p. 39. Additionally, FERC noted
that the NGA contains no provisions concerning “how
the Commission would pay just compensation in the
absence of an appropriation to do so, and the process
of transferring the property from the Commission to
the pipeline.” Id., at ¶ 51, p. 40.
In summary, FERC stated in its Declaratory Order
that, in the NGA:
“Congress established a carefully crafted comprehensive scheme in which the Commission
was charged with vindicating the public
interest inherent in the transportation and
sale of natural gas in interstate and foreign
commerce, in significant part through the
issuance of certificates of public convenience
and necessity for interstate gas pipelines. A
key aspect of this scheme was the remit to
natural gas companies of the ability to exercise, where necessary, the power of eminent
domain to acquire lands needed for projects
authorized by the Commission. We here
confirm our strong belief that NGA section
7(h) empowers natural gas companies, and

16
not the Commission, to exercise eminent
domain and that this authority applies to
lands in which states hold interest.
Declaratory Order, 170 FERC ¶ 61,064, ¶ 66, p. 49.
The lower court’s incorrect application of Eleventh
Amendment immunity will upset the regulatory
scheme set forth in the NGA which has worked for 80
years, and has allowed this nation finally to achieve
energy independence. In the end, American businesses and consumers who rely on a secure supply of
market-priced energy will pay the price.
CONCLUSION
For the foregoing reasons, amici curiae respectfully
request the Court to grant PennEast Pipeline’s Petition for Certiorari and to review the decision of the
lower court.
Respectfully submitted,
CHARLES O. BECKLEY, II
Counsel of Record
JOHN G. MILAKOVIC
ELIZABETH S. BECKLEY
THOMAS S. BECKLEY
BECKLEY & MADDEN, LLC
212 North Third Street, Suite 301
Harrisburg, Pennsylvania 17101
(717) 233-7691
cbeckley@pa.net
Counsel for Amici Curiae
March 23, 2020

